               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                 Overweight Inbound
                  International Mail

                Management Advisory




                                         September 13, 2011

Report Number MS-MA-11-001
                                                                   September 13, 2011

                                             Overweight Inbound International Mail

                                                       Report Number MS-MA-11-001




IMPACT ON:
Handling of overweight international
mail.
                                            WHAT MANAGEMENT SAID:
WHY THE OIG DID THE AUDIT:                  Management agreed with our
Our objective was to determine whether      recommendations and took action to
the U.S. Postal Service accepted and        develop and distribute interim guidance
processed international mail items over     to employees for the handling of
70 pounds, the weight limit for U.S. mail   overweight and oversized inbound
delivery.                                   international mail items. In addition,
                                            management will update Handbook T-5
WHAT THE OIG FOUND:                         to reflect the policy for handling these
The Postal Service accepted and             items by October 14, 2011.
processed overweight inbound
international mail items. By allowing       AUDITORS’ COMMENT:
overweight items to enter the mail          The U.S. Postal Service Office of
stream, the Postal Service increases the    Inspector General (OIG) considers
risk of work-related injuries.              management’s comments responsive to
                                            the recommendations and
WHAT THE OIG RECOMMENDED:                   management’s actions should resolve
We recommended the managing                 the issues identified in the report.
director and vice president, Global
Business, issue interim guidance to the
international service centers stating
procedures for handling overweight and
oversize inbound international mail
items. We also recommended
management update Handbook T-5,
International Mail Operations, to include
procedures for handling these items.        Link to review the entire report.
September 13, 2011

MEMORANDUM FOR:            GISELLE E. VALERA
                           MANAGING DIRECTOR AND
                           VICE PRESIDENT, GLOBAL BUSINESS



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Management Advisory – Overweight Inbound International
                           Mail (Report Number MS-MA-11-001)

This interim report presents the results of our review of overweight inbound international
mail (Project Number 11RG016MS000). We identified this issue during our ongoing
audit of Inbound International Mail (Project Number 11RG008MS000) and are issuing
this management advisory report to bring it to the attention of management.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Service, or me at 703-248-2100.

Attachments

cc:   Paul E. Vogel
      Deborah M. Giannoni-Jackson
      Corporate Audit and Response Management
                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Overweight Mail Accepted and Delivered........................................................................ 1

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 5

Appendix B: Management’s Comments .......................................................................... 7
Overweight Inbound International Mail                                                                MS-MA-11-001



Introduction

This report presents an issue identified during our audit of inbound international mail
(Project Number 11RG008MS000) and is being issued to address immediate concerns
regarding overweight international mail items (Project Number 11RG016MS000). This
self-initiated audit addresses operational and financial risk. Our objective was to
determine whether the U.S. Postal Service accepted and processed international mail
items over 70 pounds, the weight limit for U.S. mail delivery. See Appendix A for
additional information about this audit.

Conclusion

The Postal Service accepted and processed overweight inbound international mail
items, which is a violation of Postal Service weight restrictions. From October 11, 2010,
to June 5, 2011, three1 of the five International Service Centers (ISC) processed 2,907
overweight items,2 weighing over 70 pounds. By allowing overweight items to enter the
mail stream, the Postal Service increases the risk of work-related injuries.

Overweight Mail Accepted and Delivered

Records obtained from the Global Business System (GBS) 3 indicated that three ISCs
processed 2,907 overweight items from October 11, 2010, to June 5, 2011. Postal
Service policy establishes a maximum weight limit for EMS bags of 70 pounds.4

Table 1 illustrates the number of overweight EMS bags received at ISCs from
October 2010 through June 2011. In addition, the San Francisco ISC has formally
tracked and accepted inbound international items5 weighing more than 70 pounds into
mail operations since at least 2005.

As illustrated in Table 2, San Francisco ISC receiving unit clerks processed 600 items
weighing from over 70 pounds up to 160 pounds 6. The New York and Chicago ISCs do
not track overweight inbound international mail; however, GBS records7 indicated they
frequently received overweight items. By allowing overweight items to enter Postal
Service operations, the Postal Service increases the risk of work-related injuries
occurring.



1
  The three ISC are located in San Francisco, New York, and Chicago.
2
  These overweight items are inbound Express Mail® International Service (EMS) bags from GBS records.
3
  The Postal Service implemented GBS in 2007. This system is divided into three modules: International Dispatch,
International Receipt, and International Reconciliation System.
4
  Mailing Standards of the United States Postal Service, International Mail Manual, Chapter 221.41, April 17, 2011,
updated with Postal Bulletin revisions through June 2, 2011.
5
  In 2005, the San Francisco ISC tracked overweight EMS bags and air parcel post to determine if an overweight
issue existed. To date, the San Francisco ISC continues this tracking.
6
  Other overweight items included air parcel post items.
7
  The Universal Postal Union barcode label on an EMS bag includes its weight. This weight is then recorded into the
GBS system when the label is scanned at the Inbound Receiving Unit.
                                                           1
Overweight Inbound International Mail                                                              MS-MA-11-001



           Table 1




           Table 2




The Postal Service does not have a policy in place for processing inbound overweight
and oversize items originating from foreign posts, but allows local ISC management to
handle these items as they see fit. In June 2005, the Postal Service attempted to
identify the frequency with which overweight and oversize items (specifically EMS and
air parcel post mail) originated from foreign posts. Specifically, Postal Service
Headquarters personnel initiated a survey to trace air EMS and air Parcel Post® mail
originating from China and arriving at the San Francisco ISC for a 2- to 4-week period.
Headquarters personnel did not share the results of this survey with the ISC at the end
of this period,8 nor did they define a policy to handle prohibited overweight and oversize
inbound international mail. Consequently, guidance is needed to instruct employees on


8
 Headquarters personnel involved with this survey are no longer employed with the Postal Service and we could not
determine why the study was not shared with the ISCs.


                                                        2
Overweight Inbound International Mail                                        MS-MA-11-001



procedures for handling these items in order to mitigate employee injuries and protect
revenue.

Recommendations

We recommend the managing director and vice president, Global Business:

1. Issue interim guidance to International Service Centers stating procedures for
   handling overweight and oversize inbound international mail items.

2. Update Handbook T-5, International Mail Operations, to include procedures for
   handling oversize and overweight inbound international mail items

Management’s Comments

Management agreed with our recommendations and took action to develop and
distribute interim guidance to employees for handling overweight and oversized inbound
international mail items. In addition, management will update Handbook T-5 to reflect
the policy for handling these items by October 14, 2011. See Appendix B for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s actions should
resolve the issues identified in the report.




                                           3
Overweight Inbound International Mail                                                                MS-MA-11-001



                                 Appendix A: Additional Information

Background

Inbound international mail is foreign-originating mail destined for delivery within the U.S.
ISCs process, manage, and reconcile international mail entering the U.S. using the GBS
web-based applications. Receiving units located at ISCs record receipt of inbound
international mail using the Global Business Receipt System. In fiscal year 2010, the
Postal Service processed 289 million Competitive International transactions consisting
of 291 million pounds of international mail items, resulting in approximately $1.49 billion
in competitive international revenue.

According to Postal Service policy, the maximum weight for EMS mailpieces is
70 pounds;9 however, lower country-specific weight limits may apply. Individual Country
Listings provide the maximum weight limit for each country.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service accepted and processed
mail items over 70 pounds, the weight limit for U.S. mail delivery. To accomplish our
objective, we:

   Reviewed and summarized guidance pertaining to inbound international mail and
    oversized and overweight items.

   Obtained current and historical data on inbound international mail weight and
    dimensions for all five ISCs.

   Interviewed Postal Service officials regarding procedures for handling overweight
    and oversize inbound international mail.

   Conducted site visits to the San Francisco ISC to observe operations and gather
    information.

   Reviewed overweight survey forms at the San Francisco ISC for the period
    October 13, 2010, through June 7, 2011.

We conducted this review from June through September 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 9, 2011, and included their comments where appropriate.




9
 Mailing Standards of the United States Postal Service, International Mail Manual, Chapter 221.41, April 17, 2011,
updated with Postal Bulletin revisions through June 2, 2011.


                                                         4
    Overweight Inbound International Mail                                            MS-MA-11-001



    We assessed the reliability of data on overweight and oversize items by interviewing
    Postal Service officials knowledgeable about the data. We determined that the data
    were sufficiently reliable for the purposes of this report.

    Prior Audit Coverage

                                               Final
                             Report           Report          Monetary
   Report Title              Number            Date            Impact           Report Results
St. Louis                 FT-AR-11-009      3/31/2011       None         The Chicago ISC record
Information                                                              unit supervisor did not
Technology and                                                           review inbound verification
Accounting                                                               notes created by the
Service Center                                                           record unit clerks and was
                                                                         unaware of the
                                                                         documented control10 to
                                                                         review verification notes
                                                                         created for inbound
                                                                         dispatches. As a result of
                                                                         our audit, management
                                                                         implemented the control
                                                                         and the record unit
                                                                         supervisor began
                                                                         reviewing inbound
                                                                         dispatches in August 2010.
Miami                     FT-AR-08-012      9/3/2008        $2,084,620    Data used to bill foreign
International                                                             postal administrations
Service Center –                                                          (FPA) for inbound
Inbound                                                                   international Express Mail
International                                                             service was not complete.
Mail                                                                      We determined that 1,058
                                                                          manually entered
                                                                          dispatches were not billed
                                                                          to the FPAs. Management
                                                                          took corrective action
                                                                          during the audit to address
                                                                          the issue.




    10
         Effective May 11, 2009.


                                                        5
    Overweight Inbound International Mail                                             MS-MA-11-001



New York             FT-AR-08-005           1/24/2008       $13,700,604   Volume data used to bill
International                                                             FPAs for inbound Express
Service Center –                                                          Mail service was not
Inbound                                                                   always accurate. We found
International                                                             errors in 97 of 120 items
Mail                                                                      reviewed for China. For all
                                                                          other countries, we found
                                                                          errors in 57 of 78 items
                                                                          reviewed. Management
                                                                          agreed with our
                                                                          recommendation to
                                                                          establish and
                                                                          communicate policies and
                                                                          procedures to address the
                                                                          complete processing and
                                                                          billing cycle for inbound
                                                                          international mail.
San Francisco        FT-AR-07-012           3/30/2007       $922,478      ISC personnel in the
International                                                             record unit did not properly
Service Center –                                                          process letter class
Inbound                                                                   inbound international mail
International                                                             documents and timely
Mail                                                                      enter the information into
                                                                          the international
                                                                          web-based application.
                                                                          Management agreed with
                                                                          our recommendation to
                                                                          implement a procedure
                                                                          requiring adequate
                                                                          management oversight to
                                                                          ensure proper processing
                                                                          of inbound international
                                                                          letter class documents.




                                                        6
Overweight Inbound International Mail                          MS-MA-11-001



                           Appendix B: Management’s Comments




                                           7
Overweight Inbound International Mail       MS-MA-11-001




                                        8
